NO. 19-1049

In the
Supreme Court of the United States
BOLIVARIAN REPUBLIC OF VENEZUELA AND PETRÓLEOS DE VENEZUELA,
S.A,
Petitioners,
V.
CRYSTALLEX INTERNATIONAL CORPORATION,
Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar,
opposing counsel have consented to electronic service, and that, on this 27th day of
April, 2020, an electronic copy of the Reply Brief for the Petitioners was transmitted
via electronic mail to:
Miguel A. Estrada
Gibson, Dunn & Crutcher LLP
1050 Connecticut Ave., N.W.
Washington, DC 20036
mestrada@gibsondunn.com
Respectfully submitted,

Arn Jacobsen

